Audit Report-Executive Summary



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the 
City of Elizabeth, New Jersey Police Department
GR-70-01-003March 23, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Elizabeth, New Jersey Police Department (Elizabeth).  The purpose of the grants is to enhance community policing.  Elizabeth was awarded a total of $3,277,815 to hire 38 new police officers and redeploy the equivalent of 8 existing full-time officers from administrative duties to community policing.
	
	We reviewed Elizabeth's compliance with eight essential grant conditions.  Elizabeth complied with two grant conditions, including hiring of officers and planning for retention.  We found weaknesses in six other areas as identified below.  As a result, we question $871,882. 1

Elizabeth budgeted for decreases in the number of city funded sworn officer positions during the COPS grant period.

Elizabeth's accounting records did not show the source of local matching funds for its hiring and MORE 95 redeployment grants.  In addition, for the MORE 95 grant, Elizabeth was reimbursed in excess of the maximum        75 percent of allowable costs.

For the AHEAD/UHP and MORE 95 grants, requests for reimbursement included unallowable expenditures.

Elizabeth did not enhance community policing by the number of officers funded by the grants.

Elizabeth had not tracked the redeployment of five full-time equivalent officer positions for the MORE 95 grant.

Nine of 44 financial status reports were not submitted.  Of the remaining 35, two were not submitted timely. 

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in 
Appendix I. 



Footnotes


The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and our definition of questioned costs.